No.
IN THE

Supreme Court of the United States
_________
NORTHERN TRUST CORPORATION AND
NORTHERN TRUST COMPANY,
Petitioners,
v.
LINDIE L. BANKS AND
ERICA LEBLANC,
Respondents.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
IAN HEATH GERSHENGORN
Counsel of Record
ADAM G. UNIKOWSKY
JENNER & BLOCK LLP
1099 New York Ave. NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

CRAIG C. MARTIN
DANIEL J. WEISS
AMANDA S. AMERT
BRIENNE M. LETOURNEAU
JENNER & BLOCK LLP
353 North Clark St.
Chicago, IL 60654
(312) 222-9350

i
QUESTION PRESENTED
Congress first sought to curb abusive federal
securities litigation through the Private Securities
Litigation Reform Act of 1995 (“PSLRA”), 15 U.S.C. §§
77z-1, 78u-4. The PSLRA imposed new requirements on
class action lawsuits involving federally-regulated
securities, such as a heightened pleading standard, an
automatic stay of discovery during the pendency of any
motion to dismiss, and a cap on damages.
Because the PSLRA only applied to federal claims,
however, plaintiffs began evading its procedural
safeguards by bringing securities class actions under
state law instead. This led Congress to enact the
Securities Litigation Uniform Standards Act of 1998
(“SLUSA”), 15 U.S.C. §§ 77p(b), 78bb(f)(1). Congress
intended for SLUSA to ensure uniform application of
federal securities law standards to class action lawsuits
by precluding class action claims under state law
alleging deceptive conduct in connection with a
transaction involving federally-regulated securities.
The question presented for review is:
For purposes of SLUSA, does a trust beneficiary
allege misconduct “in connection with” the purchase
or sale of a covered security when the beneficiary
alleges that the trustee used trust assets to buy and
sell the trustee’s own proprietary securities rather
than competitors’ securities and did so for the
trustee’s own pecuniary gain?

ii
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE STATEMENT
Pursuant to Supreme Court Rule 29.6, petitioners
disclose as follows:
Petitioner Northern Trust
Corporation is a Delaware corporation with its principal
place of business in Chicago, Illinois. The stock of
Northern Trust Corporation is traded on the NASDAQ
stock exchange under the symbol “NTRS.” No publicly
traded company owns 10% or more of the stock of
Northern Trust Corporation. Petitioner The Northern
Trust Company is a wholly-owned subsidiary of
Northern Trust Corporation.
RELATED PROCEEDINGS
United States Court of Appeals (9th Cir.)
Banks v. Northern Trust Corp., No. 17-56025
(July 21, 2017)
United States District Court (C.D. Cal.)
Banks v. Northern Trust Corp., No. 2:16-cv09141-JFW (JCx) (Dec. 9, 2016)

iii
TABLE OF CONTENTS
QUESTION PRESENTED ....................................... i
PARTIES TO THE PROCEEDING AND
CORPORATE DISCLOSURE
STATEMENT ................................................. ii
RELATED PROCEEDINGS................................... ii
TABLE OF AUTHORITIES ................................... v
PETITION FOR WRIT OF CERTIORARI ..........1
OPINIONS BELOW ...................................................1
JURISDICTION ..........................................................1
STATUTORY PROVISIONS INVOLVED ...........1
INTRODUCTION .......................................................2
STATEMENT OF THE CASE .................................7
A.

Statutory Framework..........................7

B.

Factual Background .............................9

REASONS FOR GRANTING THE WRIT ..........12
I.

THE NINTH CIRCUIT DEFIED THIS
COURT’S PRECEDENT.............................12

II.

THE NINTH CIRCUIT’S DECISION
CREATES A CIRCUIT SPLIT THAT
THIS COURT SHOULD RESOLVE. .......19

iv
III.

THIS COURT’S REVIEW IS
WARRANTED IN VIEW OF THE
IMPORTANCE OF THE QUESTION
PRESENTED. ...............................................23

CONCLUSION ..........................................................26
Appendix A
Banks v. Northern Trust Corp., 929 F.3d 1046
(9th Cir. 2019) ..............................................................1a
Appendix B
Banks v. Northern Trust Corp.,
CV 16–9141–JFW (JCx), 2017 WL 3579551
(C.D. Cal. July 14, 2017) ...........................................23a

v
TABLE OF AUTHORITIES
CASES
Central Bank of Denver, N.A. v. First
Interstate Bank of Denver, N.A., 511 U.S.
164 (1994) ................................................................. 25
Chadbourne & Parke LLP v. Troice, 571 U.S.
377 (2014) ............................................. 5, 6, 15, 17, 21
Freeman Investments, L.P. v. Pacific Life
Insurance Co., 704 F.3d 1110 (9th Cir.
2013) ............................................................................ 8
Holtz v. JP Morgan Chase Bank, NA,
846 F.3d 928 (7th Cir. 2017) ................................... 19
Kircher v. Putnam Funds Trust, 547 U.S. 633
(2006) ........................................................................ 24
Merrill Lynch, Pierce, Fenner & Smith, Inc. v.
Dabit, 547 U.S. 71 (2006) ............................... passim
SEC
v.
Zandford,
535
U.S.
813
(2002) .............................................. 3, 9, 12, 13, 14, 26
Segal v. Fifth Third Bank, N.A., 581 F.3d 305
(6th Cir. 2009) ................................................ 5, 19, 20
Siepel v. Bank of America, N.A., 526 F.3d 1122
(8th Cir. 2008) ................................................ 5, 20, 21
United States v. O’Hagan, 521 U.S. 642
(1997) ........................................................ 9, 17, 18, 26
STATUTES
15 U.S.C. § 77p(b) ................................................... 2, 7, 8
15 U.S.C. § 77z-1 ......................................................... 2, 7

vi
15 U.S.C. § 78a et seq .................................................... 18
15 U.S.C. § 78bb(f) ........................................................ 18
15 U.S.C. § 78bb(f)(1) ......................................... 1, 2, 7, 8
15 U.S.C. § 78bb(f)(1)(A)............................................ 1, 2
15 U.S.C. § 78bb(f)(1)(B) ................................................ 2
15 U.S.C. § 78u-4 ......................................................... 2, 7
28 U.S.C. § 1254(1) .......................................................... 1
Cal. Bus. & Prof. Code § 17200 ................................... 10
Cal. Welf. & Inst. Code §§ 15600 et seq. .................... 10
OTHER AUTHORITIES
17 C.F.R. § 240.10b-5 ...................................................... 8
F.D.I.C., Quarterly Banking Profile Fourth
Quarter 2018 (2018). ............................................... 24

1
PETITION FOR WRIT OF CERTIORARI
Northern Trust Corporation and The Northern
Trust Company (collectively, “Northern”) petition for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The decision of the Ninth Circuit (Pet. App. 1a) is
reported at 929 F.3d 1046. The decision of the District
Court (Pet. App. 23a) is unreported but available at 2017
WL 3579551.
JURISDICTION
The judgment of the Ninth Circuit was entered
on July 5, 2019. This Court has jurisdiction pursuant to
28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
15 U.S.C. § 78bb(f)(1) provides:
No covered class action based upon the statutory
or common law of any State or subdivision thereof
may be maintained in any State or Federal court
by any private party alleging—
(A) a misrepresentation or omission of a material
fact in connection with the purchase or sale of a
covered security; or

2
(B) that the defendant used or employed any
manipulative or deceptive device or contrivance
in connection with the purchase or sale of a
covered security.
INTRODUCTION
In 1995, Congress responded to a torrent of frivolous
securities-fraud class actions by enacting the Private
Securities Litigation Reform Act of 1995 (“PSLRA”), 15
U.S.C. §§ 77z-1, 78u-4. The PSLRA weeded out
vexatious suits by imposing new requirements on class
action lawsuits involving federally-regulated securities,
such as a heightened pleading standard, an automatic
stay of discovery during the pendency of any motion to
dismiss, and a cap on damages. When it became clear
that class-action lawyers would attempt to evade the
PSLRA by filing state-law suits, Congress enacted the
Securities Litigation Uniform Standards Act of 1998
(“SLUSA”), 15 U.S.C. §§ 77p(b), 78bb(f)(1). SLUSA
ensured that cases involving nationally traded
securities would be heard under federal law. It barred
plaintiffs from bringing class actions based on state law
claims if they allege that, “in connection with the
purchase or sale of a covered security”—i.e., a security
traded nationally and listed on a regulated national
exchange—the defendant made “a misrepresentation or
omission of a material fact” or employed a “manipulative
or deceptive device or contrivance.”
15 U.S.C.
§ 78bb(f)(1)(A)-(B).
SLUSA’s enactment did not end the efforts of classaction lawyers to bring securities fraud claims under

3
state law. Their next maneuver was to advocate for an
improbably narrow reading of SLUSA’s broad
preemption provision. This Court unanimously rejected
that gambit in Merrill Lynch, Pierce, Fenner & Smith,
Inc. v. Dabit, 547 U.S. 71 (2006). In Dabit, the class
action plaintiff argued that SLUSA should preclude only
a narrow category of class actions: those where the
plaintiff alleges that he himself was defrauded into
purchasing or selling particular securities. Id. at 85.
This Court rejected this argument, holding that the plain
text of SLUSA must be construed according to its terms,
rather than grudgingly. See id. at 84-85. The Court
observed that the operative language in SLUSA—“in
connection with the purchase or sale of a covered
security”—also appears in Rule 10b-5 itself, which
governs the scope of the SEC’s authority to regulate
securities fraud, and it held that the same phrase carries
the same meeting across the two statutes. Id. at 85-86.
The Court therefore held, consistent with its Rule 10b-5
precedents, that SLUSA applies when the fraud
“coincide[s] with a securities transaction—whether by
the plaintiff or by someone else.” Id. at 85. The Court
relied heavily on SEC v. Zandford, 535 U.S. 813 (2002),
which unanimously held that a stockbroker who sells his
customer’s securities, and uses the proceeds for his own
benefit, has committed fraud “in connection with the
purchase or sale of any security” within the meaning of
Rule 10b-5. Id. at 815.
This case presents another chapter of the same story:
the Ninth Circuit permitted further evasion of the
PSLRA by allowing a securities-fraud class-action suit
to proceed under state law in direct contravention of

4
SLUSA’s text. Respondents are beneficiaries of a trust
for which Northern is the trustee. Respondents allege
that Northern, acting in its capacity as trustee,
committed fraud by investing trust assets in Northern’s
affiliated funds rather than making allegedly superior
investments in outside assets. The “connection with the
purchase or sale of a covered security” is obvious:
Respondents contend that Northern defrauded them by
buying Northern’s securities for its own pecuniary gain,
to the exclusion of securities offered by Northern’s
competitors. Thus the allegedly fraudulent self-dealing
did not merely “coincide” with the purchase and sale of
covered securities; the alleged fraud consists of the very
act of buying and selling the funds. Indeed, this case is
exactly like Zandford except that Northern is the
trustee rather than the stockbroker. Other than that,
the theory of liability—that the entity responsible for
buying and selling the securities committed fraud by
doing so for its own benefit—is identical.
Yet the Ninth Circuit adopted an impossibly narrow
view of Dabit and Zandford and allowed Respondents’
suit to proceed as a nationwide class action under state
law.
According to the Ninth Circuit, SLUSA
distinguishes between stockbroker trades and trustee
trades. Thus, when a stockbroker commits fraud by
buying or selling certain securities on behalf of an
investor, the fraud is “in connection with the purchase or
sale of any security,” but when a trustee does the same
thing on behalf of a beneficiary, the fraud ceases to be
“in connection with the purchase or sale of any security.”
This holding has no basis in the text, history, or purpose

5
of SLUSA and creates an arbitrary exception to
SLUSA’s broad preclusive force.
In addition to being wrong, the Ninth Circuit’s
decision conflicts with Segal v. Fifth Third Bank, N.A.,
581 F.3d 305 (6th Cir. 2009) (Sutton, J.), and Siepel v.
Bank of America, N.A., 526 F.3d 1122 (8th Cir. 2008),
both of which faithfully followed Dabit and Zandford
and held that SLUSA barred state-law class actions on
identical facts. The Ninth Circuit did not dispute that its
decision conflicts with Segal and Siepel. Instead, it held
that Segal and Siepel are wrong in view of this Court’s
subsequent decision in Chadbourne & Parke LLP v.
Troice, 571 U.S. 377 (2014). But Troice addressed an
entirely different issue, holding that sellers of uncovered
securities—the securities that Congress had excluded
from SLUSA’s scope—could not invoke SLUSA merely
because those sellers had made statements that they
subsequently would trade in covered securities with
other people (and then did not). Id. at 397. Nothing in
that holding endorses the stockbroker/trustee
distinction that the Sixth and Eighth Circuits rightly
rejected.
Indeed, this Court went out of its way in Troice to
prevent courts from drawing the exact erroneous
inference that the Ninth Circuit drew here. The Court
stated that “[w]e do not here modify Dabit.” Id. at 387.
The Court made clear that its approach would not
subject those “whose profession it is to give advice,
counsel, and assistance in investing in the securities
markets to complex and costly state-law litigation.” Id.
at 390. And the Court stated that “the only issuers,

6
investment advisers, or accountants that today’s
decision will continue to subject to state-law liability are
those who do not sell or participate in selling securities
traded on U.S. national exchanges.” Id. (emphasis in
original). For the Ninth Circuit thus to read Troice as
overruling Segal and Siepel is nothing short of
astonishing.
This case also presents an issue of grave importance
to the efficient operation of the securities industry in the
United States. The Ninth Circuit’s decision exposes
professional trustees like Northern to nationwide class
actions seeking to enforce an unpredictable patchwork
of state-law securities-related claims, which is exactly
what SLUSA was designed to prevent. That decision
should be reviewed, and reversed, immediately.
Awaiting additional percolation would serve no purpose:
every future securities-fraud plaintiff will accept the
court of appeals’ invitation to file suit within the Ninth
Circuit and attempt to certify a nationwide class, just as
Respondents did here.
At a minimum, the Court should seek the views of the
Solicitor General. Because Rule 10b-5 uses the same “in
connection with” language as SLUSA, the Ninth
Circuit’s narrow construction of SLUSA will
correspondingly narrow the SEC’s authority to combat
securities fraud. The result of the Ninth Circuit’s
decision will be ironic: dishonest trustees will be able to
commit fraud without the risk of SEC enforcement
actions, while plaintiffs’ lawyers attempt to enrich
themselves by pursuing strike suits against deeppocketed financial institutions. The Solicitor General

7
should be permitted to weigh in before the United States
is stripped of the authority to enforce the securities laws
in a broad class of cases in the Nation’s largest
geographic circuit.
STATEMENT OF THE CASE
A.

Statutory Framework

Congress enacted SLUSA to curb the abuse of
the class action device in cases involving securities
transactions governed by federal law. See Dabit, 547
U.S. at 81-82. Congress first sought to impose
restrictions on such class actions through the PSLRA,
15 U.S.C. §§ 77z-1, 78u-4, which imposes heightened
burdens on plaintiffs who assert class action claims
pursuant to Section 10(b) and Rule 10b-5. See Dabit, 547
U.S. at 81-82. However, because the PSLRA only
applied to federal claims, some plaintiffs attempted to
circumvent that statute by “bringing class actions under
state law” instead. Id. at 82. This led Congress to enact
SLUSA, 15 U.S.C. §§ 77p(b), 78bb(f)(1), in 1998. See
Dabit, 547 U.S. at 82-83.
SLUSA compels the dismissal of any “covered
class action” that alleges:
A. “a misrepresentation or omission of a material
fact in connection with the purchase or sale of
a covered security”; or
B. “that the defendant used or employed any
manipulative or deceptive device or

8
contrivance in connection with the purchase
or sale of a covered security.”
15 U.S.C. § 78bb(f)(1); see id. § 77p(b).1
As this Court has observed, “Congress
envisioned a broad construction” of SLUSA to prevent
plaintiffs from “undercut[ting] the effectiveness of the
[PSLRA]” by burdening the courts with “wasteful,
duplicative” and “vexatious litigation” brought under
state law. Dabit, 547 U.S. at 86. SLUSA therefore bars
any state law class action brought on behalf of 51 or more
putative class members “whether styled in tort, contract
or breach of fiduciary duty, that in essence claim[s]
misrepresentation or omission in connection with certain
securities transactions.” Freeman Invs., L.P. v. Pac.
Life Ins. Co., 704 F.3d 1110, 1114 (9th Cir. 2013).
In Dabit, this Court held that SLUSA’s “in
connection with” language carries the same meaning as
the same “in connection with” language in SEC Rule
10b-5, 17 C.F.R. § 240.10b-5. In other words, if the SEC
can bring an enforcement action under federal law, a
plaintiff cannot bring a securities fraud class action
under state law. The Court explained that not only did
Congress deliberately choose to use “the same words” in
SLUSA “as are used in § 10(b) and Rule 10b–5,” it did so
“in a provision that appears in the same statute as
§ 10(b).” 547 U.S. at 85-86. Congress therefore is
1 “A ‘covered class action’ is a lawsuit in which damages are sought
on behalf of more than 50 people,” while “[a] ‘covered security’ is
one traded nationally and listed on a regulated national exchange.”
Dabit, 547 U.S. at 83 (citing 15 U.S.C. § 78bb(f)(5)(B) and (E)).

9
presumed to have intended the “broad construction
adopted by both this Court and the SEC when it
imported the key phrase—‘in connection with the
purchase or sale’—into SLUSA’s core provision.” Id. at
85.
B.

Factual Background

Respondents are beneficiaries of the Lindstrom
Trusts, for which Northern serves as trustee. Pet. App.
4a. Respondents brought this putative nationwide class
action against The Northern Trust Company, a financial
services company which they allege has the authority to
make investments on behalf of the Lindstrom Trusts and
similar trusts, id., as well as Northern Trust
Corporation, the bank holding company that is The
Northern Trust Company’s corporate parent, see id. 3a.
Collectively, the two defendants will be referred to as
“Northern.”
Respondents allege that Northern pursued a
surreptitious and self-serving program of investing
trust assets in federally regulated securities that are
affiliated with Northern. This Court has repeatedly held
that a scheme designed to further a fiduciary’s own selfinterest at the expense of its client in connection with
securities trading constitutes an unlawful deceptive
device under Section 10(b). Zandford, 535 U.S. at 82021; United States v. O’Hagan, 521 U.S. 642, 653 (1997).
Specifically, respondents allege that Northern
operates a standardized program designed to favor
Northern-affiliated funds for its own pecuniary gain,
without regard for the best interest of the trust
beneficiaries. Pet. App. 4a. According to respondents,

10
“none of the choices made by [Northern] were untainted
by their own pecuniary self-interest,” and Northern
does not invest in competitors’ funds “because there is
no financial incentive … to do so.” Id. 26a (quoting
FAC). Respondents further allege that the “financial
benefits” Northern purportedly receives from investing
trust assets primarily in affiliated securities “are
significant and [are to] the detriment” of trust
beneficiaries. Id. (quoting FAC).
Based on these allegations, respondents asserted
seven state-law causes of action against Northern, for
breach of fiduciary duty; unjust enrichment or
restitution; accounting; unfair competition under
California Business and Professions Code § 17200; and
violation of California’s Elder Abuse and Dependent
Adult Civil Protection Act, California Welfare &
Institutions Code §§ 15600 et seq.2 The District Court
dismissed respondents’ complaint under SLUSA,
finding that plaintiffs’ claims were barred because they
challenged conduct undertaken “in connection with” the
purchase or sale of covered securities. Pet. App. 31a32a, 34a, 37a (quotation marks omitted). The District
Court relied on this Court’s holding in Dabit that the “in
connection with” requirement must be interpreted
broadly, and it rejected plaintiffs’ argument that their
claims are not covered by SLUSA because Northern
alone made the investment decisions. Id. 31a-32a.
2 The District Court dismissed an initial version of the complaint
under SLUSA without prejudice but granted leave to refile. Pet.
App. 25a-26a. After respondents then filed a materially similar
complaint, the District Court dismissed it under SLUSA with
prejudice. Id. 37a.

11
The Ninth Circuit reversed and remanded,
holding that respondents’ class action claims were not
barred under SLUSA because the fraud alleged was not
“in connection with the sale of covered securities.” Id.
17a (internal quotation marks omitted). According to
the Ninth Circuit, “a trustee’s misconduct – over which
a beneficiary of an irrevocable trust has no control –
cannot constitute misconduct ‘in connection with’ the
sale of covered securities.” Id. (citation omitted). The
Ninth Circuit based its holding on this Court’s dicta in
Troice that “[a] fraudulent misrepresentation or
omission is not made ‘in connection with’ … a ‘purchase
or sale of a covered security’ unless that fraudulent
conduct ‘is material to a decision by one or more
individuals (other than the fraudster) to buy or sell a
‘covered security.’” Id. 9a, 17a (emphasis and alterations
in original) (quoting 571 U.S. at 387).
The Ninth Circuit acknowledged that this Court
“was careful to state that Troice did not overrule Dabit.”
Id. 9a (citing 571 U.S. at 387). Nevertheless, despite
recognizing that Troice “clarifies – rather than modifies
– Dabit,” id. 16a, the Ninth Circuit determined that
Troice narrowed the “in connection with” requirement
to exclude allegations that “coincide with” a covered
securities transaction “when those allegations are
brought by the beneficiaries of an irrevocable trust.” Id.
16a-17a.
The Ninth Circuit also recognized that its holding
directly conflicted with the rulings of the Sixth and
Eighth Circuits that state-law claims asserted by trust
beneficiaries against a trustee (like those asserted
against Northern here) are precluded by SLUSA. Id.

12
14a (citing Segal v. Fifth Third Bank, N.A., 581 F.3d 305
(6th Cir. 2009); Siepel v. Bank of Am., N.A., 526 F.3d
1122 (8th Cir. 2008)). The Ninth Circuit distinguished
those cases, however, on the ground that they were
decided “pre-Troice.” Id.
In addition, the Ninth Circuit rejected Northern’s
argument that in SEC v. Zandford, 535 U.S. 813, 822
(2002), this Court already determined that the phrase “in
connection with” reaches alleged misconduct by a
defendant who “controlled” the underlying transaction.
Pet. App. 12a-13a. The Ninth Circuit distinguished its
holding from Zandford, however, on the basis that even
though the defendant in Zandford made the investment
decision, the alleged victim in that case had a greater
“degree of control” over the conduct of the fiduciary than
respondents had over Northern’s conduct. Id.
REASONS FOR GRANTING THE WRIT
I.

THE NINTH CIRCUIT DEFIED THIS
COURT’S PRECEDENT.

This case should have been easy. The “connection
with” the “purchase or sale of a covered security” is as
clear as could be. Respondents allege that Northern
broke the law because it purchased and sold covered
securities from its affiliates, rather than from third
parties. The purchase and sales do not just coincide with
the purported fraud, they are the very fraudulent act
that is alleged.
Any doubt on this score is resolved by Zandford,
which held, on materially indistinguishable facts, that
the “in connection with” requirement was satisfied. The

13
defendant in Zandford was a broker whose customers
granted him full “discretion to manage their account and
a general power of attorney to engage in securities
transactions for their benefit without prior approval.”
535 U.S. at 815. The defendant sold securities in the
discretionary account and then made personal use of the
sale proceeds. Id. at 815-16.
This Court reversed the Fourth Circuit’s decision
holding that the broker’s alleged misconduct did not
satisfy the “in connection with” element of a Section
10(b) violation because the broker made no affirmative
misrepresentation to the plaintiffs. Id. at 817-18. This
Court held that because “the SEC complaint describes a
fraudulent scheme in which the securities transactions
and breaches of fiduciary duty coincide,” the alleged
breaches “were therefore ‘in connection with’ securities
sales within the meaning of § 10(b).” Id. at 825. That is,
the defendant’s undisclosed, disloyal securities trading
activity was the core deceptive conduct held actionable
under Section 10(b): “each time respondent exercised
his power of disposition for his own benefit, that conduct,
without more, was a fraud.” Id. at 821 (internal
quotation marks omitted).
That the investment
decisions were made without the knowledge or
involvement of the principal was of no consequence; it
mattered only that the defendant was alleged to have
breached “a duty to disclose arising from a relationship
of trust and confidence between” the parties. See id. at
823 (quotation marks omitted).
The Court’s words in Zandford could have been
written for this case. Respondents’ complaint “describes
a fraudulent scheme in which the securities transactions

14
and breaches of fiduciary duty coincide,” id. at 825: they
allege that, by trading in securities with their affiliates,
Northern is committing a breach of fiduciary duty.
Similarly, respondents allege that “each time [Northern]
exercised [its] power of disposition for [its] own benefit,
that conduct, without more, was a fraud.” Id. at 821
(internal quotation marks omitted). Although Zandford
concerned the scope of Rule 10b-5, Dabit subsequently
held that Zandford also governs the scope of SLUSA.
547 U.S. at 85. A straightforward application of
Zandford and Dabit therefore resolves this case.
Yet the Ninth Circuit held that the phrase “in
connection with the purchase or sale of a covered
security” distinguishes between purchases and sales by
a stockbroker, and purchases and sales by a trustee. Pet.
App. 8a, 10a-11a. Where did this distinction come from?
Certainly not from the text. No amount of textual
exegesis can wring a stockbroker/trustee distinction
from the phrase “in connection with the purchase or sale
of a covered security.” Nor from any legislative history.
Nor from any assessment of SLUSA’s purpose. Nor
from any argument that this is a sensible way of dividing
authority between states and the federal government.
Instead, the Ninth Circuit laid the responsibility
for its strange holding on this Court. It held that dicta
in Troice, a case that had nothing to do with trustees or
stockbrokers, compelled it to adopt its new rule. Troice
did no such thing; instead, it rejected an extreme view of
SLUSA’s preclusive coverage on completely different
facts. The Troice defendant sold uncovered securities to
the plaintiffs—the very securities that Congress had
declined to address in SLUSA—and then bought real

15
estate—which is not a covered security either. Yet the
defendant argued that SLUSA precluded the plaintiffs’
lawsuit anyway, merely because the defendant had
made statements that it would buy covered securities
(even though it never actually did). Troice, 571 U.S. at
384. The Fifth Circuit held that these statements about
hypothetical stock purchases that never even
materialized did not transform a fraud that was
transparently in connection with an uncovered security
into fraud “in connection with the purchase or sale of a
covered security.” Id. at 386-87 (emphasis added). This
Court affirmed, observing that “a connection matters
where the misrepresentation makes a significant
difference to someone’s decision to purchase or to sell a
covered security, not to purchase or to sell an uncovered
security, something about which the Act expresses no
concern.” Id. at 387-88.
In reaching that conclusion, the Court made the
unremarkable observation that statements regarding
the purchase or sale of “covered securities” were being
made by the fraudster, rather than by the victims. The
Court
stated,
for
instance:
“A
fraudulent
misrepresentation or omission is not made ‘in connection
with’ … a ‘purchase or sale of a covered security’” unless
that fraudulent conduct “is material to a decision by one
or more individuals (other than the fraudster) to buy or
sell a ‘covered security.’” Id. at 387; see also id. at 388
(“If the only party who decides to buy or sell a covered
security as a result of a lie is the liar, that is not a
‘connection’ that matters.”).
Seizing on these
statements, the Ninth Circuit inferred that because
trustees formally hold title to trust assets and are not

16
controlled by beneficiaries, trustees’ purchases and sales
of covered securities did not have a sufficient
“connection” to respondents’ allegations. Pet. App. 17a.
The Ninth Circuit declared that a contrary
interpretation of Troice would make Troice
“meaningless,” though it offered no substantive
explanation for this point. Id. 16a.
The Ninth Circuit’s analysis of Troice is a
paradigmatic example of a court improperly reading a
judicial opinion like a statute. Troice had nothing to do
with whether the fraudster formally held an asset in
trust or was instead acting as a stockbroker. Troice
concerned the circumstances under which traders in
uncovered securities could transform their lawsuits into
suits “in connection with” covered securities. The Court
held that federal jurisdiction does not expand to cover
such trades merely because the fraudster also makes
statements about covered securities. By contrast, here,
the trading in covered securities is the alleged fraud.
That is, respondents allege that the trustee’s purchase
of covered securities from its affiliate is, in and of itself,
fraudulent. Troice did not consider facts remotely like
these, and its dicta could not possibly have resolved this
case.
Indeed, the Court’s opinion made that plain as
day. To avoid any doubt on that score, the Court
rejected the argument that its opinion would broadly
subject the investor and advisor community to “costly
state-law litigation,” stating unequivocally that “the
only issuers, investment advisors, or accountants that
today’s decision will continue to subject to state-law
liability are those who do not sell or participate in selling

17
securities traded on U.S. national exchanges.” 571 U.S.
at 390 (emphasis in original). The Ninth Circuit ignored
that portion of Troice and instead caused the exact
outcome this Court said that it was trying to avoid:
subjecting traders of securities that are traded on U.S.
national exchanges to massive state-law liability.
This Court’s decision in O’Hagan confirms that
the Ninth Circuit got Troice wrong. In O’Hagan, this
Court affirmed the conviction under Section 10(b) and
Rule 10b-5 of an attorney who, while representing a
company in connection with a tender offer,
misappropriated confidential company information and
used it to enrich himself through insider trading. 521
U.S. at 647-50. This Court held that the government’s
“misappropriation theory comports with § 10(b)’s
language, which requires deception ‘in connection with
the purchase or sale of any security,’ not deception of an
identifiable purchaser or seller.” Id. at 658. Like
Zandford, O’Hagan was a case about the scope of Rule
10b-5, but Dabit subsequently confirmed that O’Hagan
also defined SLUSA’s scope. 547 U.S. at 85.
Troice observed that Dabit had incorporated
O’Hagan into SLUSA, and then stated that “[w]e do not
here modify Dabit”. 571 U.S. at 387. However, under
the Ninth Circuit’s reasoning, O’Hagan—and hence
Dabit—has been overruled.
The Ninth Circuit
construed Troice as adopting a universal principle that if
the fraudster is purchasing or selling the securities by
and for himself, then there is no “connection with” the
purchase or sale of securities. That would overrule
O’Hagan, in which the fraudster did indeed purchase
and sell the securities for himself alone. The Ninth

18
Circuit did not address this point, ignoring O’Hagan
entirely. But O’Hagan demonstrates clearly the error of
the Ninth Circuit’s reasoning. O’Hagan establishes that
when the purchase or sale of the covered security is the
fraud, then the “connection with the purchase or sale of
a covered security” requirement of Section 10(b) and
Rule 10b-5—and by extension, SLUSA—is satisfied. 15
U.S.C. § 78bb(f). That is precisely what respondents
allege here.
Not just the holding of O’Hagan but also its
reasoning confirms the Ninth Circuit’s error. In
recognizing a misappropriation theory of liability under
Section 10(b) and Rule 10b-5, this Court observed that
“an animating purpose of” the Securities Exchange Act
of 1934, 15 U.S.C. § 78a et seq, is “to insure honest
securities markets and thereby promote investor
confidence.” 521 U.S. at 658. Against that backdrop,
there is no reason Rule 10b-5 would distinguish between
misappropriating confidential information to engage in
insider trading (O’Hagan), misappropriating the assets
of a discretionary brokerage account for personal use
(Zandford), and misappropriating the assets of a
discretionary brokerage or trust account to artificially
prop up the defendant’s affiliated mutual funds and
generate fees (as respondents allege here). Each alleged
act is a “manipulative or deceptive device or
contrivance” that undermines the securities markets
and risks damage to investor confidence. There likewise
is no basis to distinguish between a stockbroker and a
trustee, or an agent and trustee, as those distinctions are
entirely irrelevant insofar as the text and purpose of
SLUSA is concerned.

19
Indeed, as Judge Easterbrook explained in his
opinion for the court of appeals in Holtz v. JP Morgan
Chase Bank, NA, 846 F.3d 928 (7th Cir. 2017), “[t]he sort
of situation we encounter — in which one party to a
contract conceals the fact that it planned all along to
favor its own interests — is a staple of federal securities
law.” Id. at 932. Thus, “[a] fiduciary that makes a
securities trade without disclosing a conflict of interest
violates federal securities law.” Id. “That some of the
investment decisions were made by investment advisers
as [the plaintiff’s] agent does not take this out of the ‘in
connection with’ domain.” Id. at 933. Likewise, here,
respondents assert a classic securities-fraud claim: they
contend that Northern, a fiduciary, made securities
trades despite having an actual conflict of interest. Yet
under the Ninth Circuit’s approach, the fact that
Northern is a trustee exempts this case from the federal
securities laws. That misguided rule has no basis in the
text or purpose of SLUSA or in any decision by this
Court.
II.

THE NINTH CIRCUIT’S DECISION
CREATES A CIRCUIT SPLIT THAT THIS
COURT SHOULD RESOLVE.

As the Ninth Circuit acknowledged, its decision
squarely conflicts with the rulings of the Sixth and
Eighth Circuits. Pet. App. 14a-15a.
In Segal v. Fifth Third Bank, N.A., the Sixth
Circuit considered a substantively-identical case
brought by the beneficiary of an irrevocable trust
against a corporate trustee. 581 F.3d 305 (6th Cir. 2009).
The plaintiffs in Segal alleged that the corporate trustee

20
breached its fiduciary duties by automatically investing
trust funds in its own proprietary mutual funds rather
than lower-cost and better-performing funds offered by
its competitors, for its own pecuniary gain. Id. at 308.
Applying this Court’s precedents in Dabit and
Zandford, Judge Sutton’s opinion for the Sixth Circuit
held that the plaintiffs’ claims were precluded by
SLUSA. The court explained: “All of Segal’s counts—
breach of fiduciary duty, unjust enrichment, breach of
contract—revolve around Fifth Third's decision to buy
mutual fund shares.” Id. at 310. “Segal’s allegations do
not merely ‘coincide’ with securities transactions; they
depend on them.” Id.
Likewise, in Siepel v. Bank of America, N.A., 526
F.3d 1122, 1124 (8th Cir. 2008), the Eighth Circuit
considered the very question upon which the Ninth
Circuit’s ruling turned: “whether SLUSA preempts
state-law claims that a trustee breached its fiduciary
duty by failing to disclose conflicts of interest in its
selection of nationally-traded investment securities.”
526 F.3d at 1124. As in this case, the trust beneficiary
plaintiffs in Siepel alleged that the corporate trustee
favored its own mutual funds over the funds of its
competitors, to the detriment of the plaintiffs. Id.
The Eighth Circuit held that under a
straightforward reading of O’Hagan and Zandford,
SLUSA barred the class action. The court observed that
under O’Hagan, the “‘in connection with’ standard …
applies to a fiduciary who misappropriates information,
and then uses that information to gain no-risk profits
through a securities transaction.” Id. at 1127. Likewise,
under Zandford, that standard “covers allegations that

21
an agent made unauthorized sales of a customer’s
securities for his own benefit.” Id. Distilling those cases,
Dabit held that for SLUSA to bar a class action, “it is
enough that the fraud alleged ‘coincide’ with a securities
transaction — whether by the plaintiff or by someone
else.” Id. (quoting Dabit, 547 U.S. at 85). In the case at
hand, the plaintiffs alleged that “the Bank purchased
securities as a trustee on their behalf without disclosing
that the Bank profited from the transactions.” Id. The
court explained that “[t]he Plaintiffs’ complaint alleges
nondisclosures that clearly coincided with the Bank’s
purchase of shares in the Nations Funds mutual fund.”
Id. As such, “it follows that the Plaintiffs’ state-law
claims are preempted.” Id.
The Ninth Circuit did not and could not
distinguish Segal and Siepel. Instead, the Ninth Circuit
concluded that Troice implicitly abrogated these cases.
For the reasons explained in detail above, that holding
was wrong. Troice narrowly held that SLUSA did not
preclude claims based on the defendants’ alleged
misrepresentations
that
non-covered
securities
purchased by the plaintiffs were backed by covered
securities purchased by the defendant. 571 U.S. at 387;
supra, at 15-16. Troice expressly declined to modify the
broad “coincide with” standard announced in Dabit. 571
U.S. at 387 (“We do not here modify Dabit”). And Troice
emphasized that the “only” members of the investment
community affected by the decision would be those “who
do not sell or participate in selling securities traded on
U.S. national exchanges.” Id. at 390. Troice thus cannot
plausibly be read to overrule decisions like Segal and
Siepel that, under Dabit, SLUSA applies to trustees

22
whose very business and whose alleged fraud involves
buying and selling covered securities.
This split, moreover, merits review now. First,
the Ninth Circuit has issued an engraved invitation to
forum-shopping. The decision concerns the preclusive
scope of SLUSA, a statute that applies only to large
class actions. As long as a single class member lives
within the Ninth Circuit—which will almost always be
true when the defendant is a deep-pocketed financial
institution that is the typical target for class action
suits—the plaintiffs will file suit in the Ninth Circuit and
seek to certify a nationwide class, as respondents did
here. This will allow class members within the Sixth and
Eighth Circuits to avoid their own adverse circuit
precedent and take advantage of the Ninth Circuit’s
more favorable rule. Federal law is supposed to be
uniform nationwide; this Court resolves circuit splits
precisely to prevent geography from becoming litigation
destiny.
Second, and relatedly, awaiting further
percolation will be futile because of the powerful
incentive to file class actions in the Ninth Circuit. The
Ninth Circuit suggested the Sixth and Eighth Circuits
might reconsider their prior decisions in view of Troice.
But even if this is true (which Northern strongly
doubts), those circuits will never have the opportunity
to do so because litigants will flock to the Ninth Circuit.
From the perspective of a class-action lawyer, why take
the risk that the Sixth or Eighth Circuit will adhere to
its own prior opinion on this exact issue when a state-law
claim in the Ninth Circuit is guaranteed to overcome a
SLUSA preclusion defense? As such, if the Court adopts

23
a wait-and-see approach as to how the Sixth or Eighth
Circuits will resolve this issue after Troice, it will likely
be waiting forever.
Third, more percolation is unnecessary because
this case boils down to the interpretation of dicta in a
decision by this Court. There is no serious doubt that,
under the text of SLUSA, this suit is precluded: when a
plaintiff alleges that the purchase or sale of securities is
conducted unlawfully, as respondents do here, there is a
“connection with” purchases and sales of securities.
Although the precise scope of “in connection with” can
be vexing, this case is at the core, not the periphery. The
sole question then is whether this Court’s dicta should
be construed to abrogate the text. Additional opinions
by other courts of appeals will not yield any additional
insight into what this Court meant by its statements in
Troice. This Court should grant certiorari now and
reaffirm that the text of SLUSA, rather than extreme
interpretations of ambiguous dicta in Troice, governs
SLUSA’s scope.
III.

THIS COURT’S REVIEW IS WARRANTED
IN VIEW OF THE IMPORTANCE OF THE
QUESTION PRESENTED.

This Court should grant certiorari in view of the
extraordinary importance of this case to corporate
trusts and the securities industry as a whole. As this
Court observed in Dabit, “[t]he magnitude of the federal
interest in protecting the integrity and efficient
operation of the market for nationally traded securities
cannot be overstated.” 547 U.S. at 78. SLUSA and the
PSLRA exist to protect “the entire U.S. economy” from

24
the abusive class action securities litigation that were
“being used to injure” it. Id. at 81 (quoting H.R. Rep.
No. 104-369, at 31 (1995) (Conf. Rep.)); Kircher v.
Putnam Funds Tr., 547 U.S. 633, 636 (2006).
The Ninth Circuit’s ruling revives the
“extortionate settlement[]” pressure on corporate
trustees that Congress intended for SLUSA to
eradicate. See 547 U.S. at 81. In 2018, more than 1,100
FDIC-insured banks exercised fiduciary powers over
630,187 personal trust accounts. See F.D.I.C., Quarterly
Banking Profile Fourth Quarter 2018, at 14 (2018).
Those accounts collectively hold over $4 trillion in assets,
more than $3 trillion of which is invested in federallyregulated stocks and money market mutual funds. Id.
FDIC-insured banks derived over $4.7 billion in revenue
from managing personal trust accounts and the industry
continues to grow, with revenues increasing by 1.9% in
2018. Id.
These numbers make large, deep-pocketed
financial institutions attractive targets for plaintiffs’
lawyers, who, under the Ninth Circuit’s ruling, are now
free to pursue the vexatious state-law securities strike
suits that Congress intended the PSLRA and SLUSA to
prevent. The ruling therefore will bring a windfall to
plaintiffs’ lawyers, while harming financial institutions,
trust beneficiaries, and the investing public. As this
Court said was true of the court of appeals’ opinion in
Dabit, the Ninth Circuit’s ruling here will “chill[] any
discussion of issuers’ future prospects, and deter[]
qualified individuals from serving on boards of
directors” of banks and mutual funds. See Dabit, 547
U.S. at 81. The resulting exposure also will incentivize

25
banks to invest personal trust assets in the lowest-risk,
least-expensive securities regardless of their growth
potential and the objectives of the trust, which will
negatively impact trust beneficiaries by artificially
depressing the trust’s potential returns. In addition, the
Ninth Circuit’s decision will drive up legal costs for
trustee banks, who now will be forced to defend against
class actions invoking an unpredictable patchwork of
state law claims. The ultimate result will be the creation
of barriers to entry to the securities markets, because
the increased costs of managing bank-owned mutual
funds and providing fiduciary services inevitably will be
passed to trust beneficiaries and the investing public,
who are “the intended beneficiaries” of the federal
securities laws. See Central Bank of Denver, N.A. v.
First Interstate Bank of Denver, N.A., 511 U.S. 164, 189
(1994).
This Court’s intervention also is urgently needed
to preserve the ability of the SEC to fully enforce federal
securities law—which, at a minimum, warrants an order
inviting the Solicitor General to express his views. As
this Court held in Dabit, the phrase “in connection with
the purchase or sale” in SLUSA carries the same
meaning as the same phrase in Rule 10b-5. As such, the
Ninth Circuit’s ruling bars the SEC from enforcing the
securities laws against trustees who deceptively trade in
securities, to the detriment of trust beneficiaries.
This creates a gaping hole in the SEC’s
enforcement authority, which is not filled by the ability
of class action lawyers to file state-law suits against
institutional trustees and extract a quick settlement.
This Court has routinely reaffirmed the SEC’s broad

26
authority to enforce the securities laws, consistently
rejecting efforts by Section 10(b) defendants to avoid
liability by arguing that their misconduct was not
perpetrated “in connection with” a securities trade by a
victim. Zanford, 535 U.S. at 821-22; O’Hagan, 521 U.S.
at 655-56. The Ninth Circuit’s decision to narrow the
interpretation of “in connection with” cannot be squared
with those decisions.
This case also is an ideal vehicle for review, and
there is no reason to wait for it to proceed through
discovery to trial and final judgment on the merits of
state law claims that have nothing to do with the
application of SLUSA. The question presented, which
was raised squarely by the Ninth Circuit’s decision
below, is a purely legal question of statutory
interpretation. Further factual development in the
district court will do nothing to resolve it.
CONCLUSION
The petition for a writ of certiorari should be
granted.

27
Respectfully submitted,
Ian Heath Gershengorn
Counsel of Record
Adam G. Unikowsky
JENNER & BLOCK LLP
1099 New York Ave. NW
Washington, DC 20001
(202) 639-6000
IGershengorn@jenner.com

October 2, 2019

Craig C. Martin
Daniel J. Weiss
Amanda S. Amert
Brienne M. Letourneau
JENNER & BLOCK LLP
353 North Clark St.
Chicago, IL 60654
(312) 222-9350

APPENDIX

1a
Appendix A
IN THE UNITED STATES COURT OF APPEALS,
FOR THE NINTH CIRCUIT
____________________
No. 17-56025
____________________
D.C. Docket No. 2:16-cv-09141 – JFW-JC
Lindie L. BANKS, individually and on behalf of all
others similarly situated; Erica LeBlanc,
Plaintiff-Appellee,
v.
NORTHERN TRUST CORPORATION; Northern
Trust Company,
Defendant-Appellant.
____________________
Appeal from the United States District Court
for the Central District of California
John F. Walter, District Judge, Presiding
Argued and Submitted May 15, 2019
Pasadena, California
Filed July 5, 2019

2a
Before JACQUELINE H. NGUYEN and JOHN B.
*
OWENS, Circuit Judge, and JOHN ANTOON II,
District Judge.
**
SUMMARY
Securities Litigation Uniform Standards Act of 1998
The panel reversed the district court’s dismissal,
as barred by the Securities Litigation Uniform
Standards Act of 1998 (“SLUSA”), of a putative class
action brought against Northern Trust alleging
violations of state law involving breaches of fiduciary
duty by a trustee.
SLUSA deprives a federal court of jurisdiction to
hear certain state-law class actions.
The panel held that SLUSA did not preclude
plaintiffs’ imprudent investment claims. Specifically, the
panel held that SLUSA’s “in connection” requirement
did not preclude claims brought by an irrevocable trust
beneficiary – who has no control over the trustee –
alleging imprudent investments by that trustee. Here,
the district court’s dismissal relied entirely on its
conclusion that Northern was an agent of the trusts’
beneficiaries, a conclusion unsupported by the moving
papers and First Amended Complaint.

*

The Honorable John Antoon II, United States District Judge for
the Middle District of Florida, sitting by designation.

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

3a
The panel held that the district court erred in
dismissing plaintiffs’ fee-related tax preparation and
overcharging claims on SLUSA-preclusion grounds.
The panel also held that plaintiffs’ fee-related claims
survive a Fed. R. Civ. P. 12(b)(6) motion to dismiss.
Finally, the panel held that because plaintiffs’
elder abuse claims and the claims against Northern’s
corporate parent were not precluded by SLUSA, and
because the briefing provided no other basis for
dismissal, the dismissal of those claims were reversed.
COUNSEL
Brian J. Malloy (argued) and Thomas J. Brandi,
The Brandi Law Firm, San Francisco, California; Derek
G. Howard, Derek G. Howard Law Firm, Mill Valley,
California; for Plaintiffs-Appellants.
Craig C. Martin (argued), Brienne M.
Letourneau, Amanda S. Amert, Daniel J. Weiss, and
Craig C. Martin, Jenner & Block LLP, Chicago, Illinois;
for Defendants-Appellees.
OPINION
OWENS, Circuit Judge:
Lindie Banks and her daughter Erica LeBlanc
(“Banks”), hoping to represent a class of plaintiffs,
appeal from the dismissal of their putative class action
lawsuit against Northern Trust Company and Northern
Trust Corporation (“Northern”) for violations of state
law involving breaches of fiduciary duty by a trustee.
The district court interpreted the Securities Litigation
Uniform Standards Act of 1998 (“SLUSA”) to bar the

4a
case from proceeding in federal court. We have
jurisdiction under 28 U.S.C. § 1291, and we reverse and
remand.
I.

FACTUAL AND PROCEDURAL
BACKGROUND

Banks is the beneficiary of the irrevocable
Lindstrom Trust, created under California law. As
trustee, Northern has sole discretion on how to manage
the trust’s assets; Banks cannot participate in, direct, or
be involved in those decisions.
According to the First Amended Complaint
(“FAC”), Northern invested the trust’s assets in
Northern’s own affiliated “Funds Portfolio,” rather than
seeking superior investments outside its financial
umbrella. This practice allegedly led to the trust
suffering suboptimal returns, which would not have
happened if Northern prioritized the interests of the
trust beneficiaries (and not merely its own). Banks
argues that favoring these inferior affiliated funds —
over better-performing non-Northern funds — put
money in the pockets of Northern, which thereby
violated its duties of prudent investment and loyalty to
Banks.
The FAC also alleges that Northern, as part of an
“undisclosed internal decision to create a new profit
center,” charged improper and excessive fees for
“routine preparation of fiduciary tax returns” and failed
to maintain records to justify these expenses. These
new fees, which previously were “part of the base fee

5a
and a fundamental duty for a trustee,” allegedly
breached Northern’s duty of prudent administration.
In addition, the FAC alleges elder abuse and
unfair competition claims under California law, both
premised on the same factual allegations underlying the
investment and fee-related claims.
Northern filed a Rule 12(b)(6) motion to dismiss,
contending that SLUSA prohibited these state-law
claims from proceeding in federal court. Over Banks’
objection, the district court agreed with Northern and
dismissed the FAC without leave to amend. The court
reasoned that the allegedly imprudent investments
were in connection with the purchase or sale of covered
securities and featured material misrepresentations or
omissions. The court concluded that SLUSA precluded
Banks from bringing state-law fiduciary duty claims as
a class action in federal court.
The district court dismissed the fee, elder law,
and unfair competition claims without directly
addressing them.
II.

DISCUSSION

Although Northern moved to dismiss for failure
to state a claim under Federal Rule of Civil Procedure
12(b)(6), the parties now agree that Rule 12(b)(1) — lack
of subject matter jurisdiction — is the proper rule to
challenge a complaint under SLUSA. See Hampton v.
Pac. Inv. Mgmt. Co., 869 F.3d 844, 846–47 (9th Cir. 2017)
(holding that Rule 12(b)(1), and not Rule 12(b)(6),
governs SLUSA motions to dismiss).

6a
We review de novo whether the district court
should have dismissed this case under Rule 12(b)(1). See
U.S. ex rel. Hartpence v. Kinetic Concepts, Inc., 792 F.3d
1121, 1126 (9th Cir. 2015) (en banc).
A.

SLUSA does not preclude Banks’
imprudent investment claims.

1.

SLUSA

In 1995, Congress passed the Private Securities
Litigation Reform Act (“PSLRA”), which limited the
filing of federal securities class actions in federal court.
Pub. L. No. 104-67, 109 Stat. 737. “[T]o avoid PSLRA’s
heightened pleading requirements for class-action
securities lawsuits, plaintiffs began asserting what were
essentially federal securities law claims as state law
causes of action in state courts. Congress sought to end
this practice by enacting SLUSA.” Northstar Fin.
Advisors, Inc. v. Schwab Invs., 904 F.3d 821, 828 (9th
Cir. 2018) (citation omitted). SLUSA prohibits certain
state-law class actions:
(1)

Class action limitations.

No covered class action based upon the statutory
or common law of any State or subdivision thereof may
be maintained in any State or Federal court by any
private party alleging—
(A)
a misrepresentation
or omission of a material fact in
connection with the purchase or sale
of a covered security; or

7a
(B)
that the defendant
used or employed any manipulative
or deceptive device or contrivance
in connection with the purchase or
sale of a covered security.
15 U.S.C. § 78bb(f)(1).
To simplify, SLUSA deprives a federal court of
jurisdiction to hear “(1) a covered class action (2) based
on state law claims (3) alleging that the defendants made
a misrepresentation or omission or employed any
manipulative or deceptive device (4) in connection with
the purchase or sale of (5) a covered security.”
1
Northstar, 904 F.3d at 828.
When applying SLUSA to a complaint, courts
must “look to the substance of the allegations” to ensure
that “artful pleading” does not “remove[ ] the covered
words ... but leave[ ] in the covered concepts.” Freeman
Invs., L.P. v. Pac. Life Ins. Co., 704 F.3d 1110, 1115 (9th
Cir. 2013) (second alteration in original) (quoting Segal
v. Fifth Third Bank N.A., 581 F.3d 305, 311 (6th Cir.
2009)). With that important principle in mind, we
recognize that this case turns primarily on the “in
2
connection with” requirement. Even assuming Banks
adequately
alleged
that
Northern
made
a
1

SLUSA does not preclude a plaintiff from filing an individual (i.e.,
non-class action) state-law securities claim in state court.

2

Northern’s attempt to differentiate between subsections A and B
of SLUSA is unpersuasive because the “in connection with”
requirement is an element of both. See 15 U.S.C. § 78bb(f)(1)(A),
(B).

8a
misrepresentation or omission or employed a
manipulative device or contrivance, we must decide if
Northern’s alleged activity was in connection with the
purchase or sale of a covered security.

2.

The “in connection with”
requirement

The Supreme Court twice has spoken about
SLUSA and its “in connection with” requirement. In
Merrill Lynch, Pierce, Fenner & Smith Inc. v. Dabit, 547
U.S. 71, 126 S. Ct. 1503, 164 L. Ed. 2d 179 (2006), the
Court stressed that the “in connection with”
requirement should be interpreted broadly, as “[a]
narrow reading of the statute would undercut the
effectiveness of the [PSLRA] and thus run contrary to
SLUSA’s stated purpose,” which is to prevent state-law
class actions from end-running the PSLRA. Id. at 86,
126 S. Ct. 1503. The Court explained that “it is enough
that the fraud alleged ‘coincide’ with a securities
transaction — whether by the plaintiff or by someone
else” — to meet the “in connection with” requirement.
Id. at 85, 126 S. Ct. 1503.
In Chadbourne & Parke LLP v. Troice, 571 U.S.
377, 134 S. Ct. 1058, 188 L. Ed. 2d 88 (2014), the Court
revisited the “in connection with” requirement. The
plaintiffs in Troice alleged that the defendants induced
victims to purchase uncovered securities (certificates of
deposit that are not traded on any national exchange) by
falsely stating that covered securities (securities traded
on a national exchange) backed the uncovered securities.
Id. at 380, 134 S. Ct. 1058. The Court held that SLUSA
did not preclude the claims because the statute required

9a
“misrepresentations that are material to the purchase or
sale of a covered security.” Id. at 387, 134 S. Ct. 1058. In
discussing materiality, the Court addressed the “in
connection with” requirement, which demands “a
connection ... where the misrepresentation makes a
significant difference to someone’s decision to purchase
or to sell a covered security.” Id. at 387, 134 S. Ct. 1058
(citing Matrixx Initiatives, Inc. v. Siracusano, 563 U.S.
27, 36–40, 131 S. Ct. 1309, 179 L. Ed. 2d 398 (2011)
(stating that a misrepresentation or omission is
“material” if a reasonable investor would have
considered
the
information
significant
when
contemplating a statutorily relevant investment
decision)).
The Court also held that, under SLUSA, “[a]
fraudulent misrepresentation or omission is not made ‘in
connection with’ ... a ‘purchase or sale of a covered
security’” unless that fraudulent conduct “is material to
a decision by one or more individuals (other than the
fraudster) to buy or sell a ‘covered security.’” Id. at 387,
134 S. Ct. 1058 (emphasis added). The Court stressed
that “the ‘someone’ making that decision to purchase or
sell must be a party other than the fraudster.” Id. at 388,
134 S. Ct. 1058. “If the only party who decides to buy or
sell a covered security as a result of a lie is the liar, that
is not a ‘connection’ that matters.” Id.
The Court was careful to state that Troice did not
overrule Dabit, noting:
[I]n Dabit, we held that [SLUSA] precluded a suit
where the plaintiffs alleged a “fraudulent

10a
manipulation of stock prices” that was material to
and “‘coincide[d]’ with” third-party securities
transactions, while also inducing the plaintiffs to
“hold their stocks long beyond the point when,
had the truth been known, they would have sold.”
We do not here modify Dabit.
Id. at 387, 134 S. Ct. 1058 (citations omitted).
Nevertheless, the Court distinguished Dabit and other
dissimilar cases because they “involved a victim who
took, tried to take, or maintained an ownership position
in the statutorily relevant securities through ‘purchases’
or ‘sales’ induced by the fraud.” Id. at 389, 134 S. Ct.
1058. The Court emphasized that “[e]very one of these
cases ... concerned a false statement (or the like) that
was material to another individual’s decision to purchase
or sell a statutorily defined security.” Id. at 393, 134 S.
Ct. 1058 (emphasis added) (internal quotation marks and
alteration omitted).
This case presents a question of first impression
in this circuit: whether allegations concerning a trustee’s
imprudent investments constitute activity “in
connection with” the purchase or sale of securities when
those allegations are brought by the beneficiaries of an
irrevocable trust.
Banks argues that any false
statements or deceptive activity by Northern could not
have been material to a beneficiary’s individual decision
to purchase or sell a covered security for two reasons: (1)
a beneficiary who is not also a trustee of an irrevocable
trust cannot make an individual decision to purchase or
sell securities for the trust, and (2) Banks has no control
over Northern’s decision to do so.

11a
Applying Troice here, we agree with Banks.
Unlike an agent-principal relationship, beneficiaries who
are not also trustees of an irrevocable trust cannot direct
Northern’s actions as the trustee. Accordingly, even if
Northern engaged in fraudulent conduct, that conduct
does not change the fact that its beneficiaries are unable
to purchase or sell covered securities.
Northern contends that this difference between
an agent and a trustee is a meaningless one. But if
Northern were acting as an agent — similar to a
stockbroker — Northern’s statements and allegedly
deceptive conduct could meet SLUSA’s “in connection
with” requirement because Banks (and other
beneficiaries) could have relied on Northern’s
statements to induce the purchase of the affiliated funds.
Conversely, if Northern was in fact acting as a trustee,
and if Banks did not have control over investment of
trust assets, Northern’s deceptive or manipulative
conduct resulted only in Northern — and no other party
— purchasing affiliated funds. As Troice specifically
notes, SLUSA does not preclude cases where “the only
party who decides to buy or sell a covered security as a
result of a lie is the liar” because “that is not a
‘connection’ that matters.” 571 U.S. at 388, 134 S. Ct.
1058; see also O’Donnell v. AXA Equitable Life Ins. Co.,
887 F.3d 124, 130 (2d Cir. 2018) (holding in a non-trust
case that even if plaintiffs allege fraud, that fraud must
be material to the plaintiffs’ decision to buy, sell, or hold
a covered security to meet the “in connection with”
requirement for SLUSA preclusion).

12a
Caselaw and secondary sources support our
conclusion that preclusion turns on the distinction
between a trustee and an agent. As we previously have
explained, while “both agents and trustees are
fiduciaries ... there are significant differences between
the two.” N.L.R.B. v. United Bhd. of Carpenters &
Joiners, Local No. 1913, 531 F.2d 424, 426 (9th Cir. 1976).
Simply put, “[a]n agent acts for and on behalf of his
principal and subject to his control,” while a “trustee acts
for the benefit of the beneficiaries of the trust; he is an
agent only if he agrees to hold title for the benefit and
subject to the control of another.” Id. (citing
Restatement 2d, Agency § 14B; Restatement 2d, Trusts
§ 8).
In
contrast
to
the
beneficiary-trustee
relationship, an agent acts subject to the control of his or
her principal. This degree of control explains the
difference between this case and S.E.C. v. Zandford, 535
U.S. 813, 822, 122 S. Ct. 1899, 153 L. Ed. 2d 1 (2002), upon
which Northern heavily relies. In Zandford, the
Supreme Court held that a broker could still be liable
under § 10(b) of the Securities Exchange Act without
making an affirmative misrepresentation because his
principals granted him full discretion to trade stocks on
their behalf. See id. at 822, 122 S. Ct. 1899. Each time
the broker “exercised his power of disposition for his
own benefit, that conduct, without more, was” actionable
under § 10(b). Id. at 821, 122 S. Ct. 1899 (internal
quotation marks omitted) (quoting United States v.
Dunn, 268 U.S. 121, 131, 45 S. Ct. 451, 69 L. Ed. 876
(1925)). Northern argues Zandford shows that the level
of control between an agent and a trustee does not

13a
matter because a principal can give full control to an
agent — just like a trustee has full control of a trust.
Northern overlooks the fact that the principal
controls and directs the agent, who the principal likely
has chosen. Unlike in the irrevocable trust context, a
principal can revoke control from an agent in the course
of their relationship. In the irrevocable trust context, by
contrast, unless otherwise specified in the trust
instrument, a beneficiary cannot alter the powers of a
trustee or remove the trustee without petitioning a
court of law. See Cal. Prob. Code § 17200(10) (providing
removal power to probate courts); Arnold H. Gold et al.,
California Civil Practice Probate and Trust Proceedings
§ 24:47, Westlaw (database updated May 2019)
(explaining trustees can be removed only in accordance
with the trust instrument or by a court).
Here, the FAC does not allege that beneficiaries
made any investment decision based on Northern’s
conduct or statements. Quite the opposite: the FAC
alleges that Banks had no control over how Northern
invested the trust’s assets because Banks was only the
beneficiary of an irrevocable trust. See FAC ¶¶ 16
(“[U]nder the governing trust instrument, all
investment discretion lies exclusively with the trustee
...”), 41 (“[A]s a legal matter, under the terms of their
trust, [Northern] has sole discretion with regard to any
and all investments.”), 359 — 60 (Northern “had the
power and responsibility to administer and invest the
trust assets in the best interests of the trust
beneficiaries ... [who] had no control over the
investments”). The FAC also alleges that Northern

14a
conducted all the relevant purchases of covered
securities without direction from Banks or other
beneficiaries.
Accordingly, Troice’s discussion of
SLUSA’s “in connection with” requirement is directly
on point. The FAC does not allege that Northern’s
activities as trustee were “in connection with” any
purchase or sale of covered securities by anyone other
than Northern.
Northern’s strongest support against our
application of Troice — and its discussion of the “in
connection with” requirement — are two pre-Troice
cases: Segal v. Fifth Third Bank, N.A., 581 F.3d 305 (6th
Cir. 2009), and Siepel v. Bank of Am., N.A., 526 F.3d
1122 (8th Cir. 2008). In Segal, trust beneficiaries alleged
that the trustee breached its fiduciary and contractual
duties by investing in proprietary and higher fee
accounts that benefited the trustee. 581 F.3d at 308. The
Sixth Circuit affirmed the dismissal of the complaint,
holding that SLUSA precluded the claims. See id. at
309–10. In Siepel, the trust beneficiaries alleged statelaw fiduciary duty claims against the trustee because it
failed to disclose conflicts of interest in its selection of
nationally traded securities. See 526 F.3d at 1124. The
Eighth Circuit similarly held that SLUSA precluded the
state-law claims because the fraud “coincided” with the
trustee’s purchase of shares in the mutual funds. See id.
at 1127.
But the post-Troice decision in Henderson v.
Bank of N.Y. Mellon Corp., 146 F. Supp. 3d 438 (D.
Mass. 2015), explains why Northern’s reliance on Segal
and Siepel is misplaced:

15a
[E]ven if the self-dealing allegations amount to a
fraud claim, the fraud was not in connection with
the purchase or sale of the covered securities
except by the fraudster, i.e., the trustee. Here,
the plaintiff, as a trust beneficiary, was powerless
to buy or sell covered securities ....
....
The analysis in both [Segal and Siepel] is
foreclosed by Troice, because both cases rely on
Dabit’s broad holding that for SLUSA to
preempt, the fraud may merely “coincide” with
the purchase or sale of covered securities. Siepel,
526 F.3d at 1127; Segal, 581 F.3d at 312.
3

146 F. Supp. 3d at 443.

In Henderson, the plaintiff-beneficiaries brought
similar fee and imprudent investment claims against the
defendant-trustee. See id. at 440–41. The court held that
in light of Troice, SLUSA did not preclude the claims.
See id. at 443–44. Northern argues Henderson directly
contradicts Dabit and construes the “in connection with”
requirement too narrowly.
But Henderson’s
understanding of Troice conforms with the Supreme
3

Similarly, Northern’s reliance on Fleming v. Charles Schwab
Corp., 878 F.3d 1146, 1155–56 (9th Cir. 2017), and Holtz v.
JPMorgan Chase Bank, N.A., 846 F.3d 928, 929, 933–34 (7th Cir.
2017), is misplaced because both cases involved an agent-principal
relationship. See also Taksir v. Vanguard Grp., 903 F.3d 95, 98 (3d
Cir. 2018) (noting that Fleming and Goldberg v. Bank of America,
N.A., 846 F.3d 913 (7th Cir. 2017) (per curiam), were factually
distinguishable because those plaintiffs conceded that the alleged
misconduct “was plainly material to brokerage customers”).

16a
Court’s explanation of the “in connection with”
requirement: it must be read broadly, but not so broadly
that the connection between a defendant’s conduct and
4
the covered security becomes immaterial. As we
already concluded after Dabit, the claims should “have
more than some tangential relation to the securities
transaction.” Fleming, 878 F.3d at 1155 (quoting
5
Freeman, 704 F.3d at 1116). And as the Third Circuit
explained in Taksir, “the Supreme Court in Troice made
clear that ... Troice clarifies — rather than modifies —
Dabit.” 903 F.3d at 97.
Northern would like us to read Dabit without
considering its clarification in Troice. But we will not
render Troice meaningless the way that Game of
Thrones rendered the entire Night King storyline
meaningless in its final season. Troice directly supports
4

Northern asserts that we have cited Segal with approval multiple
times. But those citations were only for the proposition that the
substance and gravamen of the complaint govern in a preclusion
inquiry. See Freeman, 704 F.3d at 1115; Fleming, 878 F.3d at 1153;
Hampton v. Pac. Inv. Mgmt. Co. LLC, 705 F. App’x 558, 560 (9th
Cir. 2017). We have not cited Segal for its application of SLUSA to
state-law trust claims.

5

Northern also contends that we disavowed this application of
Troice in Fleming, where in a footnote we rejected the argument
that Troice “amended the Dabit ‘coincide’ standard.” 878 F.3d at
1155 n.5. This argument fails for two reasons. First, we agree that
Troice did not amend Dabit, but simply clarified its application.
Fleming’s holding — that the “in connection with requirement”
should “have more than some tangential relation to the securities
transaction” — supports our conclusion. Id. at 1155. Second,
Fleming considered SLUSA preclusion in a situation involving
brokers as agents, not the trust context.

17a
our conclusion that a trustee’s misconduct — over which
a beneficiary of an irrevocable trust has no control —
cannot constitute misconduct “in connection with” the
sale of covered securities where “the only party who
decides to buy or sell a covered security as a result of a
lie is the [trustee].” Troice, 571 U.S. at 388, 134 S. Ct.
1058. To use the language in Troice, the trustee is both
the buyer and the “fraudster”; because the trustee can
deceive only itself with any alleged misconduct, its
misconduct does not require SLUSA preclusion. See
also Bernard v. BNY Mellon Nat’l Ass’n, No. 2:18-cv00783-CRE Dkt. 58 (W.D. Pa. June 14, 2019). Troice
confirms that SLUSA’s “in connection with”
requirement does not preclude claims brought by an
irrevocable trust beneficiary — who has no control over
the trustee — alleging imprudent investments by that
6
trustee.
Here, the district court’s dismissal relied entirely
on its conclusion that Northern was an agent of the
trusts’ beneficiaries, a conclusion unsupported by the
moving papers and the FAC. Not only did the district
court fail to consider Banks’ allegations that the
beneficiaries lacked any control over the trustees — an
allegation supported by caselaw and secondary sources
— but courts generally determine the existence of an
agency relationship at the summary judgment stage, not
in determining a motion to dismiss. See Rookard v.
6

Our opinion is limited to claims involving a trustee-beneficiary
irrevocable trust relationship in which the trust instrument does
not grant the beneficiary financial management trustee powers. We
do not opine on how Troice may affect other state-law claims.

18a
Mexicoach, 680 F.2d 1257, 1261 (9th Cir. 1982).
Moreover, the district court’s brief discussion of Troice
did not acknowledge Troice’s holding that the “in
connection with” requirement is not met if the fraudster
alone bought or sold the covered securities. The district
court erred in concluding SLUSA precluded Banks’
imprudent investment claims.
Because we conclude Banks’ imprudent
investment claims do not meet the “in connection with”
requirement for SLUSA preclusion, we need not decide
whether the claims meet SLUSA’s fraudulent conduct
requirement, i.e., whether Banks adequately alleged
Northern (1) engaged in misrepresentation or omission
of a material fact or (2) used or employed any
manipulative or deceptive device or contrivance. We
reverse and remand all of Banks’ imprudent investment
claims.
B.

Banks’ fee-related claims

1.

SLUSA does not preclude Banks’
fee-related claims.

The FAC alleged three claims related to
management fees, asserting that Northern: (1)
improperly charged tax-preparation fees, (2) failed to
maintain records justifying those costs, and (3)
overcharged fixed-fee trusts.
The district court
dismissed these claims as precluded by SLUSA but did
not explain how the alleged activities were “in
connection with” securities transactions. The same
concern that animates our holding as to the imprudent
investment claims — that a trustee’s misconduct,

19a
without more, cannot constitute misconduct “in
connection with” the purchase or sale of covered
securities — applies equally to Banks’ fee claims.
Northern argues that the fee claims should be
precluded because they are “inextricably intertwined”
with the investment claims. Not only are the fee claims
not precluded by SLUSA because of the “in connection
with” requirement, the fee claims also lack any plausible
relationship to covered securities.
Unlike the
investment claims, Banks’ fee claims do not allege
conduct in relation to any securities transactions.
The Third Circuit’s recent decision in Taksir,
which held that SLUSA did not bar investors’ almost
identical overcharging claims against their broker, is
instructive. See 903 F.3d at 99. Taksir concluded
SLUSA did not apply because the overcharges were
“not the result of a material misrepresentation about
securities transactions, but rather a contractual breach
... tangentially related to the securities transactions.”
Id. Taksir relied on Troice for its holding that the feerelated claims were not “in connection with”
transactions involving a security, because the fees were
not plausibly material to the sale or purchase of a
security. See id. Additionally, Taksir recognized our
dicta in Fleming that “a claim that [the broker] charged
Plaintiffs $10 for executing a trade, despite a contract
providing for a $5 charge, would not be barred” by
SLUSA. Id. at 98 (alteration in original) (quoting
Fleming, 878 F.3d at 1153).

20a
The district court’s order did not address these
considerations or discuss the fee claims in any
substantive manner, nor did it explain why SLUSA
would preclude these claims. Because we agree with the
reasoning in both Taksir and Fleming, we conclude the
district court erred in dismissing the tax-preparation
and overcharging claims on SLUSA-preclusion grounds.

2.

Banks’ fee-related claims survive
12(b)(6).

Separately
from
its
SLUSA-preclusion
argument, Northern’s motion to dismiss the FAC also
contended that Banks did not sufficiently plead the feerelated claims under Rule 12(b)(6). To survive a Rule
12(b)(6) motion to dismiss for failure to state a claim, a
complaint must offer “more than labels and conclusions,”
and instead contain “enough factual matter” indicating
“plausible” grounds for relief, not merely “conceivable”
ones. Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555–
56, 570, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007).
Northern argues that because its fees were reasonable,
Banks failed to state a claim. Northern also contends the
FAC consists of conclusory allegations. The district
court did not rule on these arguments because it held
SLUSA precluded the fee-related claims.
A trustee must administer a trust according to its
instrument and the laws of trusts, see Cal. Prob. Code §
16001, and may only incur appropriate and reasonable
costs. See Cal. Prob. Code § 16050. Trustees are under a
continuing duty to account for dealings with trust
property and to provide those accountings to the
beneficiaries on demand. See In re Estate of De Laveaga,

21a
50 Cal.2d 480, 326 P.2d 129, 133 (1958); see also Cal. Prob.
Code § 16062. A trustee’s violation of its duty is a breach
of trust. See Cal. Prob. Code § 16400.
The FAC alleged which specific fees were at issue
— tax-preparation fees and fees in excess of the fixedfee allowed by the trust — and explained why those fees
allegedly breached Northern’s duty of loyalty. The FAC
also alleged that the $900 tax-preparation fee was
previously part of the regular trust administration fee
but subsequently became a separate cost, without
approval by a probate court. The FAC alleged that, “[a]s
time has progressed, and despite the benefits of
computerization and technology capabilities at Northern
Trust, the fees charged have increased” without
explanation. The FAC also asserted that Northern did
not provide any information about when, how, or why it
began charging tax-preparation fees.
The FAC
contended these combined allegations amounted to
breach-of-trust violations: “[t]his uniform practice of
charging excessive and improper fees violates the duties
of loyalty and prudent administration by placing
[Northern’s] own financial interest above the interest of
Plaintiffs and members of the proposed Tax Preparation
Class.”
These detailed allegations meet Twombly’s
plausibility requirement and amount to more than
conclusory labels.

22a
C.

Banks’ elder abuse claims and claims
against NT Corp.

Finally, Northern argues that Banks’ opening
brief did not address the district court’s dismissal of the
elder abuse claims and the claims against NT Corp.,
Northern’s corporate parent. Banks responds that the
district court dismissed all those claims based solely on
SLUSA preclusion, which is why its opening brief
focused on the inapplicability of SLUSA preclusion.
Further, Banks’ opening brief argued the district court
erred by summarily dismissing the complaint because it
should have considered the FAC on a claim-by-claim
basis. See Proctor v. Vishay Intertech., Inc., 584 F.3d
1208, 1228 (9th Cir. 2009) (holding that “SLUSA does not
require the dismissal of all non-precluded claims
appearing in the same complaint as a precluded claim”).
As SLUSA does not preclude the elder abuse claims or
the claims against NT Corp., and because the briefing
provides no other basis for dismissal, we also reverse the
7
dismissal of those claims.
REVERSED AND REMANDED.

8

7

We decline to reach whether the district court erred by dismissing
the claims without leave to amend, as our analysis renders that issue
moot.

8

We decline to reassign this case to a different district court judge.
See United States v. Paul, 561 F.3d 970, 975 (9th Cir. 2009) (per
curiam) (noting the three-factor test for reassignment).

23a
Appendix B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
JS-6
CIVIL MINUTES -- GENERAL
Case No. CV 16-9141-JFW (JCx)
Date: July 14, 2017
Lindie L. Banks, et al. -v- Northern Trust Corporation
PRESENT:
HONORABLE JOHN F. WALTER, UNITED
STATES DISTRICT JUDGE
Shannon Reilly
None Present
Courtroom Deputy
Court Reporter
ATTORNEYS PRESENT ATTORNEYS PRESENT
FOR PLAINTIFFS:
FOR DEFENDANTS:
None
None
PROCEEDINGS (IN CHAMBERS):
ORDER DENYING AS MOOT PLAINTIFFS’
MOTION FOR CLASS CERTIFICATION [filed
6/5/17; Docket No. 52]; and
ORDER GRANTING DEFENDANTS’ MOTION
TO DISMISS FIRST AMENDED CLASS ACTION
COMPLAINT [filed 6/19/17; Docket No. 63]
JOHN F. WALTER,
DISTRICT JUDGE

UNITED

STATES

24a
On June 5, 2017, Plaintiffs Lindie L. Banks and Erica
LaBlanc, individually and on behalf of all others similarly
situated (collectively, “Plaintiffs”) filed a Motion for
Class Certification. On June 12, 2017, Defendants
Northern Trust Corporation (“NT Corp.”) and Northern
Trust
Company
(“Northern”)
(collectively,
“Defendants”) filed their Opposition. On June 19, 2017,
Plaintiffs filed a Reply. On June 19, 2017, Defendants
filed a Motion to Dismiss First Amended Class Action
Complaint (“Motion to Dismiss”). On June 26, 2017,
Plaintiffs filed their Opposition. On July 3, 2017,
Defendants filed a Reply. Pursuant to Rule 78 of the
Federal Rules of Civil Procedure and Local Rule 7–15,
the Court finds that these matters are appropriate for
decision without oral argument. The hearing calendared
for July 17, 2017 is hereby vacated and the matters taken
off calendar. After considering the moving, opposing,
and reply papers, and the arguments therein, the Court
rules as follows:
I.

FACTUAL AND PROCEDURAL
BACKGROUND

Plaintiffs are beneficiaries of the “Lindstrom
Trust.” First Amended Complaint (“FAC”), ¶ 16.
Northern is a financial services company that serves as
the trustee for the Lindstrom Trust and retains sole
discretion to invest the Trust’s assets. Id., ¶¶ 16, 179,
187, 323, and 333. NT Corp. is Northern’s parent

25a
1

company. Plaintiffs purportedly represent a putative
class consisting of beneficiaries of trusts for which
Northern serves as trustee and has exclusive
investment discretion. Id., ¶ 349.
On December 9, 2016, Plaintiffs filed a Complaint
against Defendants, alleging causes of action for: (1)
breach of fiduciary duty in connection with fund
selection; (2) unjust enrichment or restitution; (3)
accounting as to the fund-related claims; (4) breach of
fiduciary duty in connection with tax preparation fees;
(5) accounting as to the tax preparation claims; (6) unfair
competition under California Business and Professions
Code § 17200; and (7) elder abuse under California
Welfare and Institutions Code §§ 15600, et seq. In their
Complaint, Plaintiffs alleged that Defendants undertook
a “plan” or “program” to enrich themselves by investing
trust assets in Northern-affiliated investment funds,
violating their fiduciary duties. Complaint, ¶¶ 25, 33,
and 179. According to Plaintiffs, those investments were
not in the best interest of the trust beneficiaries and
were made solely to benefit Defendants. Id., ¶¶ 38, 66–
97, and 169–222. On June 2, 2017, the Court dismissed
Plaintiffs’ Complaint, and concluded that all of Plaintiffs’
claims were precluded by the Securities Litigation
Uniform Standards Act of 1998 (“SLUSA”). Although
the Court expressed “serious reservations” as to
Plaintiffs’ ability to amend their Complaint to avoid
SLUSA claim preclusion, the Court, in light of the Ninth
1

Plaintiffs allege claims against NT Corp. on the ground that NT
Corp. “directs and approves the actions of its subsidiaries.” Id., ¶
29.

26a
Circuit’s liberal policy favoring leave to amend, granted
Plaintiffs an opportunity to amend their Complaint.
On June 5, 2017, Plaintiffs filed their First
Amended Complaint.
In their First Amended
Complaint, Plaintiffs allege the same seven claims for
relief against Defendants as alleged in their original
Complaint. Plaintiffs again allege that Defendants
breached their fiduciary duties by engaging in a
surreptitious “internal business plan” of investing trust
assets in Defendants’ “own financially related
investment vehicles.” FAC, ¶¶ 29 and 274. Specifically,
Plaintiffs allege that “[i]n regard to Defendants’
investments in mutual funds, none of the choices made
by Defendants were untainted by their own pecuniary
self-interest,” that defendants do not invest in
competitors’ funds “because there is no financial
incentive for [Defendants] to do so,” and that “[t]he
financial benefits” Defendants receive from investing
trust assets primarily in affiliated securities “are
significant and [to] the detriment [of] the Plaintiffs.” Id.,
¶¶ 58, 161, 311. Plaintiffs also contend that Defendants
engaged in a practice of rebating mutual fund
management fees to the trusts, which “allowed
[Defendants] to use and retain the money, and profit by
that use, without returning an appropriate additional
money for the use of the trust assets” or advising
beneficiaries “that they were entitled to an additional
remedy.” Id., ¶¶ 74–75, 81, 85. Plaintiffs allege that
Defendants’ practices reduced the “rate of return” on
trust investments. Id., ¶ 231.

27a
II.

LEGAL STANDARD

A motion to dismiss brought pursuant to Federal
Rule of Civil Procedure 12(b)(6) tests the legal
sufficiency of the claims asserted in the complaint. “A
Rule 12(b)(6) dismissal is proper only where there is
either a ‘lack of a cognizable legal theory’ or ‘the absence
of sufficient facts alleged under a cognizable legal
theory.’” Summit Technology, Inc. v. High–Line
Medical Instruments Co., Inc., 922 F. Supp. 299, 304
(C.D. Cal. 1996) (quoting Balistreri v. Pacifica Police
Dept., 901 F.2d 696, 699 (9th Cir. 1988)). However,
“[w]hile a complaint attacked by a Rule 12(b)(6) motion
to dismiss does not need detailed factual allegations, a
plaintiff’s obligation to provide the ‘grounds’ of his
‘entitlement to relief’ requires more than labels and
conclusions, and a formulaic recitation of the elements of
a cause of action will not do.” Bell Atlantic Corp. v.
Twombly, 550 U.S. 544, 555 (2007) (internal citations and
alterations omitted). “[F]actual allegations must be
enough to raise a right to relief above the speculative
level.” Id.
In deciding a motion to dismiss, a court must
accept as true the allegations of the complaint and must
construe those allegations in the light most favorable to
the nonmoving party.
See, e.g., Wyler Summit
Partnership v. Turner Broadcasting System, Inc., 135
F.3d 658, 661 (9th Cir. 1998). “However, a court need not
accept as true unreasonable inferences, unwarranted
deductions of fact, or conclusory legal allegations cast in
the form of factual allegations.” Summit Technology, 922
F. Supp. at 304 (citing Western Mining Council v. Watt,

28a
643 F.2d 618, 624 (9th Cir. 1981) cert. denied, 454 U.S.
1031 (1981)).
“Generally, a district court may not consider any
material beyond the pleadings in ruling on a Rule
12(b)(6) motion.” Hal Roach Studios, Inc. v. Richard
Feiner & Co., 896 F.2d 1542, 1555 n. 19 (9th Cir. 1990)
(citations omitted). However, a court may consider
material which is properly submitted as part of the
complaint and matters which may be judicially noticed
pursuant to Federal Rule of Evidence 201 without
converting the motion to dismiss into a motion for
summary judgment. See, e.g., id.; Branch v. Tunnel, 14
F.3d 449, 454 (9th Cir. 1994).
Where a motion to dismiss is granted, a district
court must decide whether to grant leave to amend.
Generally, the Ninth Circuit has a liberal policy favoring
amendments and, thus, leave to amend should be freely
granted. See, e.g., DeSoto v. Yellow Freight System, Inc.,
957 F.2d 655, 658 (9th Cir. 1992). However, a Court does
not need to grant leave to amend in cases where the
Court determines that permitting a plaintiff to amend
would be an exercise in futility. See, e.g., Rutman Wine
Co. v. E. & J. Gallo Winery, 829 F.2d 729, 738 (9th Cir.
1987) (“Denial of leave to amend is not an abuse of
discretion where the pleadings before the court
demonstrate that further amendment would be futile.”).
III.

DISCUSSION

SLUSA compels the dismissal of any “covered
class action” that alleges (1) that the defendant made “a
misrepresentation or omission of a material fact in
connection with the purchase or sale of a covered

29a
security” or (2) “that the defendant used or employed
any manipulative or deceptive device or contrivance in
connection with the purchase or sale of a covered
security.” 15 U.S.C. § 78bb(f)(1). The Ninth Circuit has
held that SLUSA bars any state-law class action
brought on behalf of 50 or more putative class members,
“whether styled in tort, contract or breach of fiduciary
duty, that in essence claim[s] misrepresentation or
omission in connection with certain securities
2
transactions.” Freeman Invs., L.P. v. Pac. Life Ins. Co.,
704 F.3d 1110, 1114 (9th Cir. 2013); see also Stoody–
Broser v. Bank of Am., N.A., 442 F. App’x 247, 249 (9th
Cir. 2011) (holding that SLUSA applies where a covered
class action “allege[s], either expressly or implicitly,
misrepresentations,
omissions,
or
fraudulent
practices”).
In their Motion, Defendants argue that Plaintiffs’
First Amended Complaint should be dismissed because
all of Plaintiffs’ claims are precluded by the Securities
3
Litigation Uniform Standards Act of 1998 (“SLUSA”).
Defendants argue that the only changes Plaintiffs made
to the allegations of their First Amended Complaint
were to remove “securities law buzzwords” and delete
“paragraphs from the original [C]omplaint that
obviously triggered SLUSA preclusion, while leaving
2

It is undisputed that the putative class in this case includes more
than 50 people.

3

Defendants also make other arguments as to why Plaintiffs’ First
Amended Complaint should be dismissed, but because the Court
agrees with Defendants that all of Plaintiffs’ claims are precluded
by SLUSA, the Court need not address those arguments.

30a
the substance of their claims intact.” Defendants’
Statement of Decision, 4:10–12. The Court agrees.
Plaintiffs “cannot avoid the application of SLUSA by
removing covered words from its complaint but leaving
in the covered concepts.” Zweiman v. AXA Equitable
Life Ins. Co., 146 F. Supp. 3d 536, 546–48 (S.D.N.Y. 2015)
(dismissing complaint in subsequent action that was
“selectively edited ... to delete ‘magic words’ or ‘red
flags’ identifying [plaintiff’s previous] claim to be a
securities fraud claim precluded by SLUSA”); Araujo v.
John Hancock Life Ins. Co., 206 F. Supp. 2d 377, 384–85
(E.D.N.Y. 2002) (holding that a plaintiff cannot “artfully
avoid SLUSA” by amending their complaint to excise
“the allegations that the defendant engaged in
fraudulent conduct” where the “crux of the amended
complaint” continues to allege a deceptive scheme in
connection with covered securities); Behlen v. Merrill
Lynch, 311 F.3d 1087, 1095–96 (11th Cir. 2002) (affirming
dismissal of amended complaint where plaintiff
“delete[d] all claims and allegations that might be
deemed to fall within the scope of the SLUSA,” but
nevertheless “implicitly alleged” concealment); Felton v.
Morgan Stanley Dean Witter & Co., 429 F. Supp. 2d 684,
693 (S.D.N.Y. 2006) (affirming dismissal of amended
complaint that pled “a securities fraud wolf dressed up
in a breach of contract sheep’s clothing”).
In this case, the substance of Plaintiffs’
allegations in the First Amended Complaint is no
different from the substance of their original Complaint.
The First Amended Complaint still contains multiple
allegations that Defendants engaged in a “manipulative
or deceptive device or contrivance” with respect to the

31a
“purchase or sale of a covered security” by
systematically favoring their own pecuniary interests to
Plaintiffs’ detriment which, as this Court previously
held, is conduct covered by SLUSA. See 15 U.S.C. §§
77p(b) and 78bb(f)(1). Plaintiffs also continue to allege
express and implied “misrepresentations or omissions of
material fact” in connection with the investment of trust
assets in Northern-affiliated funds, which independently
triggers SLUSA. See 15 U.S.C. §§ 77p(b), 78bb(f)(1).
Therefore, the claims in Plaintiffs’ First Amended
Complaint, like those in their original Complaint, are
precluded by SLUSA.
A.

Plaintiffs’ Challenge Conduct Was
Undertaken “In Connection With” The
Purchase or Sale of Covered Securities.

The threshold element required for SLUSA
preclusion of state law class action claims is that the
challenged conduct was undertaken “in connection with
4
the purchase or sale of a covered security.” 15 U.S.C. §§
77p(b), 78bb(f)(1). The Supreme Court has specifically
held that the “in connection with” requirement is to be
given a “broad interpretation.” Merrill Lynch, Pierce,
Fenner & Smith Inc. v. Dabit, 547 U.S. 71, 85 (2006).
In the First Amended Complaint, Plaintiffs
continue to allege that Northern, as Trustee of the
Lindstrom Trust, rather than Plaintiffs, made the
4

Plaintiffs do not dispute that the mutual funds in which Defendants
invested trust assets are covered securities. See 15 U.S.C. §§
77r(b)(2), 77p(f)(3), 78bb(f)(5)(E); Holtz v. JPMorgan Chase Bank,
N.A., 846 F.3d 928, 929 (7th Cir. 2017) (holding that “mutual funds
are securities” covered by SLUSA).

32a
investment decisions. However, as this Court discussed
in its June 2, 2017 Order dismissing Plaintiffs’ original
Complaint, numerous federal courts have held that
investments made by a plaintiff’s agent meet SLUSA’s
“in connection with” requirement. See, e.g., Holtz, 846
F.3d at 933 (“That some of the investment decisions
were made by investment advisers as [the plaintiff’s]
agent does not take [the case] out of the ‘in connection
with’ domain”); Siepel v. Bank of America, N.A., 526
F.3d 1122, 11247 (8th Cir. 2008) (concluding that SLUSA
prohibits “state-law claims that a trustee breached its
fiduciary duty by failing to disclose conflicts of interest
in its selection of nationally-traded investment
securities”); Segal v. Fifth Third Bank, N.A., 581 F.3d
305, 310 (6th Cir. 2009) (“All of Segal’s counts—breach of
fiduciary duty, unjust enrichment, breach of contract—
revolve around Fifth Third’s decision to buy mutual fund
shares. Segal’s allegations do not merely ‘coincide’ with
securities transactions; they depend on them”);
Goodman v. AssetMark, Inc., 53 F. Supp. 3d 583, 590
(E.D.N.Y. 2014) (rejecting the suggestion that “SLUSA
cannot apply whenever the defendant accused of fraud,
instead of the plaintiff, was the one who purchased the
covered securities”).
Therefore, Plaintiffs’ claims easily fall within the
SLUSA’s broad “in connection with” requirement.
B.

Plaintiffs Have Alleged A “Manipulative
or Deceptive Device or Contrivance.”

SLUSA precludes state law class action claims
that allege a “manipulative or deceptive device or
contrivance” otherwise covered by Section 10(b) and
Rule 10b–5. 15 U.S.C. §§ 77p(b)(2), 78bb(f)(1)(B).

33a
However, for SLUSA to apply, allegations of
“manipulative or deceptive device or contrivance” need
not involve a misrepresentation or omission. Instead, an
allegation that the defendant “exercised [its] power of
disposition for [its] own benefit” is sufficient. SEC v.
Zandford, 535 U.S. 813, 821 (2002) (holding that the
broker “was only able to carry out his fraudulent scheme
without making an affirmative misrepresentation
because the [customers] had trusted him to make
transactions in their best interest without prior
approval”); see also In re Enron Corp. Sec., Derivative
& ERISA Litig., 235 F. Supp. 2d 549, 577–79 (S.D. Tex.
2002) (collecting examples of the type of conduct held to
violate Section 10(b), and noting that they are “not
merely limited to the making of an untrue statement of
material fact or omission”).
In their First Amended Complaint, as in their
original Complaint, Plaintiffs allege that Defendants
have undertaken an “internal business plan” to favor its
own affiliated mutual funds when investing trust assets.
FAC, ¶ 29. In addition, Plaintiffs allege that, under this
plan, “[i]n regard to Defendants’ investments in mutual
funds, none of the choices made by Defendants were
untainted by their own pecuniary self-interest.” Id., ¶
311. Plaintiffs also allege that “[t]he recurring theme of
Defendants’ conduct ... is that Defendants allowed their
own financial interest.... to influence their decisionmaking process in regard to investing trust assets” (id.,
¶ 330), and that defendants “approv[ed] investments for
trust assets under their management because they were
financially related to Defendants.” Id., ¶ 362. Moreover,
Plaintiffs newly allege that Defendants improperly

34a
charge mutual fund management fees to the trusts and
then rebate those fees so that they can “use and retain
the money, and profit by that use, without returning an
appropriate additional money for the use of the trust
assets.” Id., ¶¶ 74–81. These are precisely the type of
“deceptive device” claim that SLUSA was intended to
preclude. See, e.g., Montoya v. New York State United
Teachers, 754 F. Supp. 2d 466, 472–73 (E.D.N.Y. 2010)
(holding that claims that a fiduciary made investment
recommendations based on its own pecuniary gain
rather than “based upon the best interests of the
Plaintiffs” alleged a “manipulative or deceptive device”
covered by SLUSA); see also Zandford, 535 U.S. at 821
(holding that liability under the securities laws attached
when the defendant “exercised his power of disposition
for his own benefit”).
Therefore, Plaintiffs’ claims easily fall within the
SLUSA’s “manipulative or deceptive device”
requirement, and, because Plaintiffs’ claims also meet
the “in connection with” requirement, they are
precluded by SLUSA.
C.

Plaintiffs Have Alleged A Material
Misrepresentation or Omission.

SLUSA precludes state law class action claims
alleging “misrepresentation or omission of a material
fact in connection with the purchase or sale of a covered
security.” Stoody–Broser, 442 F. App’x at 247.
“[M]isrepresentation need not be a specific element of
the claim to fall within [SLUSA]’s preclusion.” Id.
Instead, courts ask “whether the complaint includes
these types of allegations, pure and simple.” Segal, 581
F.3d at 311; Miller v. Nationwide Life Ins. Co., 391 F.3d

35a
698, 701–02 (5th Cir. 2004) (“[T]he only question before
us is whether Miller’s breach of contract claim alleged
that Nationwide made untrue statements.... Miller’s
complaint clearly does include such allegations.... We
thus conclude that Miller’s state law claim falls within
the prohibition of [SLUSA]”).
In determining if a particular state law class
action
claim
includes
an
allegation
of
a
misrepresentation that falls within SLUSA preclusion,
courts routinely dismiss state law class action claims
alleging that the defendant failed to disclose its conduct
and practices in relation to investment of client assets in
proprietary mutual funds. For example, in Segal, 581
F.3d at 309–10, the Sixth Circuit affirmed dismissal of
state law breach of fiduciary duty and breach of contract
claims alleging that the trustee bank “failed to inform
trust beneficiaries that their trust accounts would be
invested in proprietary mutual funds.” Observing that
courts “have no license to draw a line between SLUSA–
covered claims that must be dismissed and SLUSA–
covered claims that must not be,” the Sixth Circuit held
that whether the plaintiff’s state law claims “depend on
allegations of misrepresentation or manipulation” was
irrelevant—the only question was “whether the
complaint includes these types of allegations.” Id. at 311.
Similarly, in Spencer v. Wachovia Bank, N.A., 2006 WL
3408043, *4 (S.D. Fla. May 10, 2006), the court held that
SLUSA preempted breach of fiduciary duty claims
involving allegations that the bank trustee “attempt[ed]
to conceal” investments in proprietary funds and
engaged in misleading marketing, because such
allegations
of
nondisclosure
involved

36a
“misrepresentations” that triggered the statute. See
also Stoody–Broser, 442 F. App’x at 248 (affirming the
dismissal of a complaint alleging that a trustee engaged
in “omissions of material fact and deceptive practices”
regarding investments in proprietary mutual funds).
In their First Amended Complaint, Plaintiffs
continue to allege a variety of express and implied
misrepresentations and omissions in connection with
investment of trust assets in Northern-affiliated funds.
For example, Plaintiffs allege that Defendants have “an
internal policy”—a policy that is not disclosed to trust
beneficiaries—“of not using competitor’s [sic] mutual
funds in lieu of the Northern Trust Family of Funds.”
FAC, ¶ 168; see also id., ¶¶ 283–84 (alleging that
Defendants “routinely and uniformly favor and direct
investment of trust assets into financially related
instruments” to serve their “internal goals” of
“retain[ing] investment in Defendants’ own proprietary
funds”). In addition, Plaintiffs allege that Defendants
follow “an internal business plan which requires and
instructs [Defendants’] officers and employees to select
funds from a ‘[Northern] Guidance List’ that causes
man[a]gers to invest personal trust assets in the
Northern Trust Family of proprietary funds to the
exclusion of the rest of the markets.” Id., ¶ 29. Plaintiffs
also allege that “Defendants have stated verbally to
certain beneficiaries”—though not to Plaintiffs—“that
there is an internal policy of forced investment only in
the Northern Funds Portfolio affiliated funds for trusts
with assets under a value of $5,000,000.” Id., ¶ 144.
Plaintiffs’ allegations that Defendants wrongfully
invested trust assets in affiliated funds to satisfy

37a
purportedly disloyal “internal” plans, policies, and goals
necessarily imply that Defendants concealed those
plans, policies, and goals from trust beneficiaries. See,
e.g., Rayner v. E*TRADE Fin. Corp., ––– F. Supp. 3d –
–––, 2017 WL 1232730, *5 (S.D.N.Y. Apr. 3, 2017)
(holding that plaintiff alleged misrepresentations or
omissions because “plaintiff’s claims necessarily
challenge what E*TRADE told the plaintiff about its
execution practices, and the nature of E*TRADE’s
[disclosure] obligations to the plaintiff”). Moreover,
Plaintiffs have now added allegations that Defendants
“did not advise the putative class that they were entitled
to an additional remedy” beyond a rebate of fund
management fees, and that this alleged “silence is an
additional breach of the duty of loyalty.” FAC, ¶¶ 85–86.
Because Plaintiffs have alleged a variety of
express and implied misrepresentations and omissions
in connection with investment of trust assets in
Northern-affiliated funds in their First Amended
Complaint, and, because Plaintiffs’ claims also meet the
“in connection with” requirement, their claims are
precluded by SLUSA.
IV.

CONCLUSION

For all the foregoing reasons, Defendants’ Motion
to Dismiss is GRANTED. Plaintiffs’ First Amended
Complaint is DISMISSED without leave to amend,
and this action is DISMISSED with prejudice.
Plaintiffs’ Motion for Class Certification is DENIED as
moot.
IT IS SO ORDERED.

